               Office of Inspector General




45th SEMIANNUAL REPORT TO CONGRESS
               OCTOBER 1, 2010 – MARCH 31, 2011


                                            APRIL 2011




                     Federal Labor Relations Authority
       1400 K Street, N.W. Suite 250, Washington, D.C. 20424
                                      TABLE OF CONTENTS

                                                                 PAGE

EXECUTIVE SUMMARY…………………………………………………………………….. 2

FEDERAL LABOR RELATIONS AUTHORITY OVERVIEW……………………….....            3

      MISSION…………………………………………………………………………………………. 3

      ORGANIZATION………………………………………………………………………………..                  3

OFFICE OF INSPECTOR GENERAL……………………………………………………...                  6

OFFICE OF INSPECTOR GENERAL ACTIVITY………………………………………..               7

      COMPLETED AUDITS AND EVALUATIONS…………………………………………….            7

      PLANNED AUDITS AND EVALUATIONS………………………………………………..            8

      INVESTIGATIONS……………………………………………………………………………..                 9

      OTHER ACTIVITIES…………………………………………………………………………..                9

REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL ACT OF 1978,
                                                             11
AS AMENDED………………………………………………………………………..………...
FREEDOM OF INFORMATION ACT REQUESTS………………………………………                  12
      TABLE I SUMMARY OF AUDIT REPORTS WITH CORRECTIVE
              ACTIONS OUTSTANDING FOR MORE THAN 1 YEAR………….         13
     TABLE II LISTING OF AUDIT REPORTS ISSUED…………………………….           14

    TABLE III REPORTS WITH QUESTIONED COSTS …………….……………… 15


    TABLE IV RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER
                                                         16
             USE…………………………………………………………………………..
 APPENDIX A     ACRONYMS AND ABBREVIATIONS………………………………...           17

 APPENDIX B     DEFINITIONS OF TERMS USED……………………………………..           18




45TH SEMIANNUAL REPORT TO CONGRESS      OCTOBER 1, 2010 – MARCH 31, 2011
                                                   EXECUTIVE SUMMARY

  This is the 45th Semiannual Report issued by the Office of Inspector General (OIG)
  of the Federal Labor Relations Authority (FLRA). This report, submitted pursuant
  to Section 5 of the Inspector General Act of 1978, as amended, summarizes the
  major activities and accomplishments of the FLRA OIG for the period October 1,
  2010 to March 31, 2011. The most significant activities of the OIG during the first
  half of Fiscal Year (FY) 2011 are noted below. Additional details pertaining to each
  activity can be found in subsequent sections of this report.

  The OIG issued two reports, the annual Financial Statement Audit of the Federal
  Labor Relations Authority for Fiscal Year 2010 (AR-11-01); and an Evaluation of
  the Federal Labor Relations Authority Compliance with the Federal Information
  Security Management Act Fiscal Year 2010 Report (ER-11-01).

  The OIG contracted with Harper, Rains, Knight & Company (HRK), P.A., to audit
  the FLRA Financial Statements for FYs 2010 and 2009. HRK expressed an
  unqualified opinion. Also, the OIG issued a Management Letter in connection with
  the financial statement audit.

  In addition, the OIG issued an evaluation report on the FLRA’s compliance with
  Federal Information Security Management Act (FISMA). The results of the
  evaluation revealed 20 findings and recommendations including 16 repeat
  conditions from the FY 2009 FISMA evaluation. FLRA has a corrective action plan
  to remediate the weaknesses in the second half of FY 2011.

  The FLRA Inspector General received 26 complaints and two Freedom of
  Information Act (FOIA) requests. Of the 26 complaints received, the OIG resolved
  15 of the complaints, referred 9 to other OIGs, and forwarded 2 to other FLRA
  offices. The OIG opened no investigations.




45TH SEMIANNUAL REPORT TO CONGRESS          2           OCTOBER 1, 2010 – MARCH 31, 2011
  FEDERAL LABOR RELATIONS AUTHORITY OVERVIEW

  MISSION

  The mission of the FLRA is to carry out the five primary statutory responsibilities
  as efficiently as possible and in a matter that gives full effect to the rights afforded
  employees and agencies under the Federal Service Labor-Management Relations
  Statute (the Statute). Under the Statute, the primary responsibilities (type of
  cases) of the FLRA include:

     (1) Determining the appropriateness of units for labor organization
         representation (REP);
     (2) Adjudicating exceptions to arbitrator’s awards (ARB);

     (3) Resolving complaints of unfair labor practices (ULP);

     (4) Resolving bargaining impasses; and

     (5) Resolving issues relating to the duty to bargain (NEG).


  ORGANIZATION

  The FLRA conducts it case processing activities through:

       The Office of the General Counsel (OGC) of the Authority – led by the
        General Counsel, who is appointed by the President and confirmed by the
        Senate – which, through regional offices, is the entry point for ULP charges
        filed with the FLRA. The OGC also processes REP petitions filed with the
        FLRA and decides appeals of Regional Directors’ decisions dismissing ULP
        charges.

       The Office of Administrative Law Judges is the office in which judges
        appointed by the Authority conduct administrative hearings and issue
        recommended decisions in cases involving alleged ULPs and issue decisions
        involving applications for attorney fees under the Back Pay Act or the Equal
        Access to Justice Act.

       The Authority is a quasi-judicial body (with three full-time Members --one of
        which serves as the FLRA Chairman-- appointed by the President and


45TH SEMIANNUAL REPORT TO CONGRESS            3             OCTOBER 1, 2010 – MARCH 31, 2011
         confirmed by the Senate), that resolves appeals in ULP and REP cases and
         adjudicates exceptions to ARB awards and NEG appeals.

       The Federal Service Impasses Panel, which consists of seven part-time
        members appointed by the President (without Senate confirmation), resolves
        impasses between Federal agencies and unions representing Federal
        employees under the Statute and the Federal Employees Flexible and
        Compressed Work Schedules Act.

       The FLRA also provides full staff support to two other entities: the Foreign
        Service Impasse Disputes Panel and the Foreign Service Labor Relations
        Board (FSLRB).

  The Chairman is the head of the Agency and also serves as FLRA’s Chief Executive
  and Administrative Officer, [and] overseeing all agency-wide administrative
  functions.

  In carrying out statutory responsibilities, the Chairman oversees the following
  offices:

       The Office of the Executive Director, which provides agency-wide
        operational support through the following divisions: Budget and Finance,
        Administrative Services, and Information Resources Management.

       The Office of the Solicitor, which represents the agency in court proceedings
        before all United States Courts and provides the Chairman legal advice on
        various legal issues.

       The Office of Human Resources, which is responsible for providing agency-
        wide Human Resource services, and leading human capital management
        efforts pursuant to the FLRA Strategic Plan.




45TH SEMIANNUAL REPORT TO CONGRESS          4           OCTOBER 1, 2010 – MARCH 31, 2011
                                     ORGANIZATION CHART


                                                    AUTHORITY
                                                   CHAIRMAN AND
                                                  CHIEF EXECUTIVE
                                                      OFFICER




    FOREIGN
    SERVICE            FOREIGN          FEDERAL
                                                                    OFFICE OF THE               AUTHORITY
     LABOR             SERVICE          SERVICE                                                                           GENERAL
                                                                     INSPECTOR                  MEMBERS
   RELATIONS           IMPASSE         IMPASSES                                                                           COUNSEL
                                                                      GENERAL                      (2)
     BOARD         DISPUTES PANEL        PANEL




                                                                                           CHIEF COUNSELS
                                                                                                                          REGIONAL
                                                                                            (ONE TO EACH
                                                                                                                           OFFICES
                                                                                              MEMBER)
                                                                                                                             (7)
                                                                                               & STAFF




                                                                                                                     COLLABORATION
      EQUAL                                                                                                                AND
                     OFFICE OF THE    OFFICE OF THE
   EMPLOYMENT                                                       OFFICE OF THE         CHIEF COUNSEL TO            ALTERNATIVE
                      EXECUTIVE      ADMINISTRATIVE
   OPPORTUNITY                                                       SOLICITOR             THE CHAIRMAN                  DISPUTE
                       DIRECTOR        LAW JUDGES
    PROGRAM                                                                                                            RESOLUTION
                                                                                                                        PROGRAM




                                      INFORMATION                                                           CASE INTAKE
  ADMINISTRATIVE     BUDGET AND                                                       HUMAN
                                       RESOURCES                                                                AND
    SERVICES           FINANCE                                                      RESOURCES
                                      MANAGEMENT                                                            PUBLICATION
     DIVISION          DIVISION                                                      DIVISION
                                         DIVISION                                                             DIVISION




45TH SEMIANNUAL REPORT TO CONGRESS                        5                     OCTOBER 1, 2010 – MARCH 31, 2011
                                     OFFICE OF INSPECTOR GENERAL

  The Inspector General Act of 1978, as amended (hereafter referred to as the IG Act),
  requires the Federal Labor Relations Authority (FLRA) and other small agencies to
  establish an Office of Inspector General (OIG). FLRA is a designated Federal entity
  under the IG Act of 1978, as amended. The Dodd-Frank Wall Street Reform and
  Consumer Protection Act (P.L. 111-203) altered the relationship of the designated
  Federal entity Offices of Inspector General with the agency head by establishing
  that the term “head of the designated Federal entity” for FLRA “means the
  members of the Authority.” In accordance with the Dodd-Frank Act, instead of
  reporting to the Chairman as we have in the past, we submit this report to the
  Chairman and to Authority Members.

  The FLRA OIG is responsible for:

     (1) conducting and supervising audits and investigations relating to FLRA
         programs and operations;

     (2) reviewing legislation;

     (3) recommending policies designed to promote economy, efficiency, and
         effectiveness of the establishment; and

     (4) keeping the Chairman, Authority Members and Congress fully and currently
         informed about problems and deficiencies, as well as the necessity for
         corrective actions.

     To aid the OIG in accomplishing its mission, the OIG was provided an IG and an
     administrative assistant.

                                  ORGANIZATION CHART



                                         INSPECTOR
                                          GENERAL




                        ADMINISTRATIVE                 OPERATIONAL
                          ASSISTANT                      SUPPORT
                                                     - COUNSEL TO THE IG
                                                     - CONTRACTOR




45TH SEMIANNUAL REPORT TO CONGRESS           6             OCTOBER 1, 2010 – MARCH 31, 2011
                  OFFICE OF INSPECTOR GENERAL ACTIVITY

  COMPLETED AUDITS AND EVALUATIONS

  FINANCIAL STATEMENT AUDIT OF THE FEDERAL LABOR RELATIONS AUTHORITY FOR
  FISCAL YEAR 2010 (AR-11-01)

  The Accountability of Tax Dollars Act of 2002, Public Law 107-289 requires the
  FLRA OIG or an independent external auditor, as determined by the IG to prepare
  and submit to Congress and the Director of the Office of Management and Budget,
  audited financial statements.

  Under a contract monitored by the OIG, Harper, Rains, Knight & Company, (HRK),
  P.A., an independent public accounting firm, audited the FLRA’s balance sheets as
  of September 30, 2010 and 2009, and the related statements of net cost and changes
  in net position, the statements of budgetary resources. HRK expressed an
  unqualified opinion on FLRA’s financial statements and reported that they
  presented fairly, in all material respects, the financial position of FLRA as of
  September 30, 2010 and 2009.

  HRK was not contracted for and did not provide an opinion on the effectiveness of
  FLRA’s internal controls. However, HRK did state they did not find any
  deficiencies in internal control that were considered to be material weaknesses,
  relative to their expressing an opinion on FLRA’s financial statements.

  There were no material weaknesses in internal control over financial reporting, and
  no reportable instances of noncompliance with laws and regulations tested. The
  final audit report was released November 15, 2010.

  MANAGEMENT LETTER FOR FISCAL YEAR 2010 AUDIT OF THE FEDERAL LABOR
  RELATIONS AUTHORITY FINANCIAL STATEMENTS (AR-11-02)

  HRK, P.A., under contract with the OIG, audited FLRA’s balance sheets as of
  September 30, 2010 and 2009. HRK, P.A. also examined FLRA’s internal control
  over financial reporting and identified other operational matters, which resulted in
  a total of two financial management comment observations that did not reach the
  level required to be reported as significant deficiencies in our Financial Statement
  Audit Report of the FLRA for FY 2010.




45TH SEMIANNUAL REPORT TO CONGRESS          7            OCTOBER 1, 2010 – MARCH 31, 2011
  EVALUATION OF THE FEDERAL LABOR RELATIONS AUTHORITY COMPLIANCE WITH THE
  FEDERAL INFORMATION SECURITY MANAGEMENT ACT FISCAL YEAR 2010 (ER-11-01)

  The E-Government Act of 2002 (P.L. 107-347), commonly referred to as FISMA,
  requires Federal agencies to develop, document, and implement an agency-wide
  information security program that provides security for the information and
  information systems that support the operations and assets of the agency. FISMA
  assigns specific responsibilities to agency heads and IGs.

  FISMA requires agencies to have an annual independent evaluation performed of
  their information security programs and practices and to report the evaluation
  results to OMB. FISMA states that the independent evaluation is to be performed
  by the agency IG or an independent external auditor as determined by the IG.

  Txdel, on behalf of the OIG, conducted an independent evaluation of FLRA’s
  compliance with FISMA for FY 2010 using guidelines established by FISMA, OMB,
  and the National Institute of Standards and Technology. A report was issued
  November 12, 2010, and identified 20 findings and recommendations that were
  agreed upon by management. Of the 20 findings and recommendations, 16 were
  repeat conditions from the FY 2009 FISMA Evaluation. FLRA has a corrective
  action plan to remediate the weaknesses in the second half of FY 2011.

  MANAGEMENT AND PERFORMANCE CHALLENGES

  The Reports Consolidation Act of 2000, Public Law 106-531, requires the IG to
  provide the agency head with a statement that summarizes the most serious
  management and performance challenges facing the agency and briefly assesses the
  agency’s progress in addressing those challenges. On October 14, 2010, we provided
  the Chairman and Members the most serious management and performance
  challenges facing the FLRA along with a brief assessment of management’s
  progress in addressing them. These ongoing challenges included: Resource
  shortages; FLRA physical and information technology security; proper handling of
  records and succession planning. The agency has made substantial progress in
  addressing these challenges.

  PLANNED AUDITS AND EVALUATIONS

  The OIG plans to initiate the following audit and evaluations during the second half
  of FY 2011.

     (1) Financial Statement Audit of the Federal Labor Relations Authority for
         Fiscal Year 2011 (AR-12-01); and
     (2) Evaluation of the Federal Labor Relations Authority Compliance with the
         Federal Information Security Management Act Fiscal Year 2011 (ER-12-01).


45TH SEMIANNUAL REPORT TO CONGRESS          8           OCTOBER 1, 2010 – MARCH 31, 2011
  INVESTIGATIONS

  The FLRA OIG receives and investigates allegations of fraud, waste, abuse and
  misconduct within FLRA programs and operations. The FLRA OIG investigations
  can give rise to administrative, civil and criminal penalties. Based on
  investigations conducted, the FLRA IG makes recommendations to FLRA
  management regarding administrative and civil matters. Investigations which
  uncover potential criminal activity are referred to the Department of Justice.
  During the time period covered by this report, there were no new or ongoing
  investigations.

  OIG HOTLINE

  In order to facilitate reporting of allegations, FLRA OIG maintains a hotline (see
  “Contacting the Office of Inspector General”). Callers who have general questions
  or concerns that do not fall within the OIG’s jurisdiction are referred to other
  entities, such as other FLRA offices, Federal agencies and local or state
  governments.

  During the reporting period, we received 26 hotline complaints. The OIG resolved
  15 of the complaints, referred 9 to other OIGs, and forwarded 2 to other FLRA
  offices.

  OTHER ACTIVITIES

  REGULATORY REVIEW

  Section 4(a)(2) of the Inspector General Act of 1978, as amended, requires the OIG
  to review existing and proposed legislation and regulations relating to FLRA
  programs and operations of FLRA. During this reporting period the OIG reviewed
  the draft Federal Register notice of interim FLRA supplemental ethics rules. These
  proposed rules addressed approval requirements for and certain prohibitions of
  outside employment.

  PEER REVIEW

  Offices of Inspector General performing audits are required to perform (and
  undergo) reviews of other OIG offices on a 3-year cycle. Peer reviews are conducted
  of an OIG audit organization’s system of quality control in accordance with the
  Council of Inspectors General on Integrity and Efficiency (CIGIE) Guide for
  Conducting External Peer Reviews of the Audit Organizations of Federal Offices of
  Inspector General, based on requirements in the Government Auditing Standards
  (Yellow Book). Federal audit organizations can receive a rating of pass, pass with
  deficiencies, or fail.


45TH SEMIANNUAL REPORT TO CONGRESS          9           OCTOBER 1, 2010 – MARCH 31, 2011
  Section 989C of the Dodd-Frank Wall Street and Consumer Protection Act of 2010,
  contains additional semiannual reporting requirements pertaining to peer review
  reports. Federal Inspectors General are required to engage in peer review processes
  related to audit operations. In keeping with Section 989C, our office is reporting
  the following information related to its peer review activities. These activities cover
  our role as both the reviewed, and the reviewing OIG.

     Peer Review Conducted on FLRA OIG Audit Operations

     The United States International Trade Commission completed a peer review of
     the FLRA OIG and issued a report on its system of quality controls on
     September 16, 2008. Management has taken action to correct the weaknesses
     identified in the peer review.

     Peer Review Planned on FLRA OIG Audit Operations

     The Appalachian Regional Commission OIG will be performing a peer review of
     the FLRA in the second half of FY 2011.

     Peer Review to be Conducted by FLRA OIG on Other OIG Audit Operations

     The FLRA is scheduled to perform a peer review of the Election Assistance
     Commission OIG in FY 2012.

  MEMORANDUM OF UNDERSTANDING

  In accordance with Section 6 of the Inspector General Reform Act of 2008, each
  Inspector General shall have his or her own (not reporting to agency management) legal
  counsel, or obtain the services of a counsel appointed by and directly reporting to another
  Inspector General or CIGIE on a reimbursable basis. The OIG signed a Memorandum of
  Understanding with the Department of Treasury OIG to provide legal services on a
  fiscal-year basis.

  LIAISON ACTIVITIES

  The FLRA IG is a member of the CIGIE, which was established on October 14,
  2008, pursuant to the Inspector General Reform Act of 2008.




45TH SEMIANNUAL REPORT TO CONGRESS              10           OCTOBER 1, 2010 – MARCH 31, 2011
                REPORTING REQUIREMENTS OF THE INSPECTOR
                        GENERAL ACT OF 1978, AS AMENDED
   The reporting requirements of the Inspector General Act of 1978, as amended, are
   listed in the following table along with the location of the required information. The
   word “None” appears where there is no data to report under a particular
   requirement.


 REFERENCE                                    REPORTING REQUIREMENT                         PAGE
Section 4(a)(2)         Review of legislation and regulations                               p. 9
Section 5(a)(1)         Significant problems, abuses, and deficiencies relating to the      None
                        administration of programs and operations
Section 5(a)(2)         Recommendations with respect to significant problems,               None
                        abuses or deficiencies
Section 5(a)(3)         Recommendations included in previous semiannual reports              p. 13
                        on which corrective action has not been completed (TABLE I)
Section 5(a)(4)         Matters referred to prosecutive authorities                         None
Section 5(a)(5)         Summary of reports                                                  None
Section 5(a)(6)         Listing by subject of audit reports issued (TABLE II)                p. 14
Section 5(a)(7)         Summary of significant reports                                       p. 7
Section 5(a)(8)         Statistical table – Reports with questioned costs (TABLE III)        p. 15
Section 5(a)(9)         Statistical table – Recommendations that funds be put to             p. 16
                        better use (TABLE IV)
Section 5(a)(10)        Summary of each audit report, inspection report, and                None
                        evaluation report without management decisions
Section 5(a)(11)        Description and explanation of revised management decision          None
Section 5(a)(12)        Management decision with which the IG is in disagreement            None
Section 5(a)(13)        Information under section 05(b) of the Federal Financial            None
                        Management Improvement Act (FFMIA) of 19961
Section 5(a)(14)        Peer Review Activity                                                p. 9




   1
       FLRA is not subject to the requirements of the FFMIA.


45TH SEMIANNUAL REPORT TO CONGRESS                             11   OCTOBER 1, 2010 – MARCH 31, 2011
                 FREEDOM OF INFORMATION ACT REQUESTS

  Number of Freedom of Information Act (FOIA) Requests Received                    1
  Number of FOIA Requests Processed                                                2
  Number Granted                                                                   1
  Number Partially Granted
  Number Not Granted
  Reasons for Denial
  No Records Available
  Referred to Other Agencies
  Requests Denied in Full Exemption 3
  Requests Denied in Full Exemption 5
  Requests Denied in Full Exemption 7(A)
  Requests Denied in Full Exemption 7(C)
  Request Withdrawn
  Not a Proper FOIA Request
  Not an Agency Record
  Duplicate Request
  Other
  Requests for OIG Reports from Congress and Other Government Agencies
  Received
  Processed
  Appeals Received
  Appeals Processed
  Appeals Completely Upheld
  Appeals Partially Reversed
  Not Proper FOIA Request
  Other
  Number of OIG Reports/Documents Released in Response to Requests
  Note 1: The OIG processed one FOIA request that was received in FY 2010.
  Note 2: A request may involve more than one report.
  Note 3: During this 6-month period, two reports were posted on line on the OIG
        Web site: http://www.flra.gov/OIG




45TH SEMIANNUAL REPORT TO CONGRESS         12          OCTOBER 1, 2010 – MARCH 31, 2011
                                                                    TABLE I

       SUMMARY OF AUDIT REPORTS WITH CORRECTIVE
       ACTIONS OUTSTANDING FOR MORE THAN 1 YEAR

                                                       RECOMMENDATIONS
                             REPORT     ISSUE
       REPORT TITLE                             NUMBER      CLOSE     OPEN
                             NUMBER     DATE


  Report on Evaluation of   FY09FISMA   07/09     16          0          16
  FLRA’s FISMA
  Compliance




45TH SEMIANNUAL REPORT TO CONGRESS      13       OCTOBER 1, 2010 – MARCH 31, 2011
                                                                     TABLE II

                             LISTING OF AUDIT REPORTS ISSUED

   REPORT     ISSUE      REPORT TITLE      QUESTIONED UNSUPPORTED      FUNDS PUT
   NUMBER     DATE                           COSTS       COSTS         TO BETTER
                                                                          USE

  ER-11-01 11/12/10    Evaluation of the        $0          $0              $0
                       FLRA’s
                       Compliance with
                       the Federal
                       Information
                       Security
                       Management Act
                       Fiscal Year 2010

                       Financial                $0          $0              $0
1. AR-11-01 11/15/10   Statement Audit
                       of the FLRA for
                       Fiscal Year 2010

  AR-11-02 01/04/11    Management               $0          $0              $0
                       Letter for the FY
                       2010 Audit of the
                       FLRA’s
                       Financial
                       Statement
                       Report




 45TH SEMIANNUAL REPORT TO CONGRESS        14        OCTOBER 1, 2010 – MARCH 31, 2011
                                                                    TABLE III

                               REPORTS WITH QUESTIONED COSTS
  The following statistical table summarizes the OIG monetary recommendations and
  the FLRA responses to those recommendations.



                                      NUMBER OF    QUESTIONED     UNSUPPORTED
                                       REPORTS       COSTS           COSTS
  A. For which no management
     decision has been made by
                                          0            $0               $0
     the commencement of the
     reporting period.

  B. Which were issued during
                                          0            $0               $0
     the reporting period.

                   Subtotals (A+B)        0            $0               $0

  C. For which a management
     decision was made during             0            $0               $0
     the reporting period.

     (i) Dollar value of
                                          0            $0               $0
         disallowed costs; and

     (ii) Dollar value of costs not
                                          0            $0               $0
          disallowed.

  D. For which no management
     decision has been made by
                                          0            $0               $0
     the end of the reporting
     period.

  E. Reports for which no
     management decision was
                                          0            $0               $0
     made within six months of
     issuance.




45TH SEMIANNUAL REPORT TO CONGRESS            15     OCTOBER 1, 2010 – MARCH 31, 2011
                                                                    TABLE IV

             RECOMMENDATIONS THAT FUNDS BE PUT TO
                                      BETTER USE


                                                 NUMBER OF        DOLLAR VALUE
                                                  REPORTS        (IN THOUSANDS)
  A. For which no management decision has
     been made by the commencement of                0                 $0
     the reporting period.

  B. Which were issued during the
                                                     0                 $0
     reporting period.

                            Subtotals (A+B)          0                 $0

  C. For which a management decision was
                                                     0                 $0
     made during the reporting period.

     (i) Dollar value of recommendations
                                                     0                 $0
         that were agreed to by management

     (ii) Dollar value of recommendations
          that were not agreed to by                 0                 $0
          management

  D. For which no management decision has
     been made by the end of the reporting           0                 $0
     period.

  E. Reports for which no management
     decision was made within six months             0                 $0
     of issuance.




45TH SEMIANNUAL REPORT TO CONGRESS          16       OCTOBER 1, 2010 – MARCH 31, 2011
                                                                APPENDIX A

                                ACRONYMS AND ABBREVIATIONS

   ARB                     Arbitration (type of FLRA case)

   FFMIA                   Federal Financial Management Improvement Act

   FISMA                   Federal Information Security Management Act of 2002

   FLRA                    Federal Labor Relations Authority

   FOIA                    Freedom of Information Act

   FSLRB                   Foreign Service Labor Relations Board

   FY                      Fiscal Year
                           Council of Inspectors General on Integrity and
   CIGIE
                           Efficiency
   HRK                     Harper, Rains, and Knight Company

   IG                      Inspector General

   NEG                     Negotiability (Type of FLRA case)

   OGC                     Office of the General Counsel

   OIG                     Office of Inspector General

   OMB                     Office of Management and Budget

   P.L.                    Public Law

   REP                     Representation (Type of FLRA Case)

   STATUTE                 Federal Service Labor-management Relations Statute

   ULP                     Unfair Labor Practice (Type of FLRA case)




45TH SEMIANNUAL REPORT TO CONGRESS       17          OCTOBER 1, 2010 – MARCH 31, 2011
                                                                      APPENDIX B

                                     DEFINITIONS OF TERMS USED

   Disallowed Cost              A questioned cost that management, in a management
                                decision, has sustained or agreed should not be charged
                                to the Government.

   Final Action                 The completion of all actions that management has
                                concluded, in its management decision, are necessary
                                with respect to the findings and recommendations. If
                                management concluded that no actions were necessary,
                                final action occurs when management decision is
                                issued.

   Management Decision          An evaluation by management of the findings and
                                recommendations included in an audit report and the
                                issuance of a final decision by management concerning
                                its response to such findings and recommendations,
                                including actions concluded to be necessary.

   Questioned Cost              A cost questioned because of: (a) an alleged violation of
                                a law, regulation, contract, or other agreement or
                                document governing the expenditures of funds; (b) a
                                finding that, at the time of the audit, such cost is not
                                supported by adequate documentation; or (c) a finding
                                that the expenditure of funds for the intended purpose
                                is unnecessary or unreasonable.

   Recommendation That          A recommendation that funds could be used more
   Funds Be Put To Better Use   efficiently if management took actions to complete the
                                recommendation, including: (a) reduction in outlays; (b)
                                deobligate funds; (c) costs not incurred by implementing
                                recommended improvements related to the operations
                                of the establishment, a contractor; (d) avoidance of
                                unnecessary expenditures noted in preaward reviews of
                                contract; or (e) any other savings which specifically
                                identified.

   Unsupported Cost             A cost questioned because at the time of the audit, such
                                cost is not supported by adequate documentation.




45TH SEMIANNUAL REPORT TO CONGRESS         18            OCTOBER 1, 2010 – MARCH 31, 2011
CONTACTING THE OFFICE OF INSPECTOR GENERAL




IF YOU BELIEVE AN ACTIVITY IS WASTEFUL,
FRAUDULENT, OR ABUSIVE OF FEDERAL FUNDS,
CONTACT THE:




HOTLINE (800)331-3572
HTTP://WWW.FLRA.GOV/OIG-HOTLINE




EMAIL: OIGMAIL@FLRA.GOV
CALL: (202)218-7970 FAX: (202)343-1042
WRITE TO: 1400 K Street, N.W. Suite 250,       Washington, D.C. 20424




 The complainant may remain confidential; allow their name to be used; or anonymous. If the complainant
 chooses to remain anonymous, FLRA OIG cannot obtain additional information on the allegation, and also
 cannot inform the complainant as to what action FLRA OIG has taken on the complaint. Confidential status
 allows further communication between FLRA OIG and the complainant after the original complaint is
 received. The identity of complainants is protected under the provisions of the Whistleblower Protection Act of
 1989 and the Inspector General Act of 1978. To learn more about the FLRA OIG, visit our Website at
 http://www.flra.gov/oig
